OFFICE OF INSPECTOR GENERAL

              Audit Report

Audit of Railroad Retirement Act Dual Spouse
             Annuity Adjustments


             Report No. 14-04
              March 20, 2014




RAILROAD RETIREMENT BOARD
                              EXECUTIVE SUMMARY

The Office of Inspector General for the Railroad Retirement Board conducted an audit
to determine whether spouse annuities were appropriately adjusted for entitlement to
dual railroad benefits.


Findings

Our audit determined that there were instances of dual spouse annuities that had not
been appropriately adjusted. Our review of a statistical sample of 114 dual spouse
annuity cases identified 3 sample cases that contained a payment error for the actual
rate. Projecting the statistical sample to the population, there are at least 56 spouse
annuities that are not appropriately adjusted. The estimated monetary impact of these
improper payments is approximately $1.8 million.

In addition, during preliminary data analysis, we identified five cases where the spouse
annuities were not appropriately adjusted. These five cases were identified outside of
the statistical sample. We estimate the monetary impact of the improper payments for
the five cases to be approximately $866,000.

The total financial impact of all errors is estimated to be approximately $2.7 million.


Key Recommendations

We recommend that agency management:

   •   take action to correct the spouse annuities for the error cases cited, and to
       establish overpayments and/or issue accruals when necessary; and

   •   provide additional training to claims examiners concerning spouse annuity
       adjustments.


Management’s Response

Agency management agreed with all recommendations and agreed to take corrective
action. The full text of agency management’s response is included in this report as
Appendix V on page 13.




                                              i
                                         TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................................. i


INTRODUCTION


  Background .................................................................................................................. 1
  Audit Objective ............................................................................................................. 2
  Scope ........................................................................................................................... 2
  Methodology ................................................................................................................. 2

RESULTS OF AUDIT

     Restored Amount Not Always Adjusted as Required ................................................ 4
       Recommendations ................................................................................................. 5
       Management’s Response ....................................................................................... 5
     Improper Restored Amounts Paid ............................................................................. 5
       Recommendation ................................................................................................... 6
       Management’s Response ....................................................................................... 6

APPENDICES

  Appendix I - Glossary of Terms .................................................................................... 7
  Appendix II - Data Analysis Testing Methodology and Results .................................... 8
  Appendix III - Statistical Sampling Methodology and Results..................................... 10
  Appendix IV - Estimated Financial Impact of Inaccurate Spouse Annuity Cases
  Involving Dual Entitlement .......................................................................................... 12
  Appendix V – Management’s Response – Office of Programs................................... 13




                                                                 ii
                                             INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) audit of dual
spouse annuity adjustments under the Railroad Retirement Act (RRA).

A glossary of terms has been provided in Appendix I on page 7.

Background

The Railroad Retirement Board (RRB) is an independent agency in the executive
branch of the Federal government. The RRB administers the retirement/survivor and
unemployment/sickness insurance benefit programs for railroad workers and their
families under the Railroad Retirement Act and the Railroad Unemployment Insurance
Act. In fiscal year (FY) 2013, the RRB paid retirement and survivor benefits totaling
$11.7 billion to approximately 568,000 beneficiaries.

For the month of July 2013, the RRB paid approximately $129 million in benefits to
nearly 140,000 spouse annuitants and divorced spouse annuitants.

The RRA provides for annuities to employees, spouses, and survivors. Regular railroad
retirement annuities are calculated under a two-tier formula. The first tier (“Tier I”) is
based on railroad retirement credits and any social security credits an employee has
acquired. The amount of Tier I is calculated using social security formulas, but with
railroad retirement age and service requirements. The second tier (“Tier II”) is based on
railroad retirement credits only, and can be compared to the retirement benefits paid
over and above social security benefits to workers in other industries.

The term “Dual Railroad Retirement Annuity” applies to situations where an individual is
entitled to more than one railroad retirement annuity. The scope of our audit was limited
to individuals who are entitled to both an employee annuity and a spouse annuity.
These dual benefits consist of (a) the employee’s annuity based upon his/her own
railroad earnings and (b) a second annuity based upon the railroad earnings of the
employee’s retired spouse. The law, however, requires that the spouse annuity be
adjusted for the employee annuity. 1 The required adjustment to the spouse annuity
varies depending on certain criteria which are outlined in Appendix III on page 10.
(See “Determination of Accuracy of Dual Spouse Annuity Adjustments.”)

The Office of Programs within the RRB is the primary organization responsible for the
adjustments to spouse annuities for dual railroad retirement benefits. To keep track of
entitlements, the Office of Programs maintains two benefit records for each dual
annuitant: one record under the annuitant’s employee number, and one under their
spouse’s employee number. Entitlement and payment records for both the employee
annuitant and the spouse annuitant are found in RRB computer systems. The Office of
Programs’ claims examiners are responsible for processing spouse adjustments.

1
    45 United States Code § 231a, 231b, and 231c.

                                                    1
This audit supports the RRB’s Strategic Goal II to “[s]erve as responsible stewards for
our customers’ trust funds and agency resources.” 2 One objective for achieving that
goal is to ensure the accuracy and integrity of benefit programs. The mission of the
agency is to ensure that the RRB pays benefits to the right people, in the right amounts,
in a timely manner. This audit directly addresses that key area of performance.

Audit Objective

The objective of this audit was to determine whether spouse annuities were
appropriately adjusted for entitlement to dual railroad retirement benefits.

Scope

The scope of this audit was limited to selected spouse records in the agency’s Master
Benefit File (MBF) for July 2013. The records selected were for spouses that had dual
entitlement to an employee annuity and a spouse annuity, and were in current pay
status.

Methodology

To accomplish the audit objective, we:

      •    reviewed applicable laws and regulations;
      •    reviewed agency documentation;
      •    identified and reviewed internal controls over the calculation of the dual spouse
           annuity adjustment;
      •    performed data analysis to identify spouse annuities that included a restored
           amount for which the annuitant was not eligible (See Appendix II on page 8 for
           testing methodology and results.);
      •    performed data analysis on the spouse MBF to define the universe from which to
           draw a statistical sample;
      •    selected a statistical sample of dual spouse annuitants and recomputed the
           annuity adjustments for accuracy (See Appendix III on page 10 for sampling
           methodology and results.); and
      •     interviewed agency management and staff.




2
    “Railroad Retirement Board, Performance and Accountability Report, Fiscal Year 2013.”

                                                          2
To assess the reliability of the spouse data provided in the MBF download, we:

   •   compared data elements in the spouse MBF to the corresponding data in the
       applicable Payment Rate Entitlement History (PREH) screens;
   •   interviewed Office of Programs staff about inconsistencies observed in the PREH
       screens; and
   •   reviewed the employee and spouse MBF data dictionaries.

We determined that the downloaded data was sufficiently reliable for the purposes of
this report.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. We conducted our fieldwork at the RRB’s headquarters in Chicago,
Illinois from September 2013 through January 2014.




                                           3
                                          RESULTS OF AUDIT

Our audit determined that there were instances of dual spouse annuities that had not
been appropriately adjusted. Our statistical sample of 114 cases identified 3 cases with
inaccurate dual spouse annuity adjustments. Based on our projection, we estimate the
monetary impact of unidentified improper payments to be approximately $1.8 million for
56 cases. In addition, we identified five cases where spouse annuities were not
appropriately adjusted. These five cases were identified during data analysis, not as
part of the statistical sample. We estimate the monetary impact of the improper
payments for the five cases to be approximately $866,000. The total financial impact of
all errors is estimated to be approximately $2.7 million.

The details of our findings and recommendations for corrective action follow. The full
text of management’s response is presented as Appendix V on page 13 of this report.

Restored Amount Not Always Adjusted as Required

The restored amount used to calculate the Tier II portion of the spouse annuity is not
always updated for events that occur after the initial annuity computation. Our review of
a statistical sample of 114 dual spouse annuity adjustments identified 3 sample cases
that contained a payment error which resulted from an inappropriate adjustment to
spouse annuities. The three cases are classified as follows:

    •    We identified two cases with monthly underpayments. The underpayments
         occurred because the earnings records were recalculated, but the spouse
         annuities were not appropriately adjusted.
    •    We identified one case with a monthly overpayment. This overpayment occurred
         because the spouse began receiving a social security benefit on their own
         earnings record, but the spouse annuity was not appropriately adjusted.

According to RRB regulations, the Tier II component of the spouse’s annuity should be
increased by a restored amount if either the annuitant or the spouse had railroad
service prior to 1975. The restored amount is equal to the amount that the spouse's
Tier I component was reduced for the spouse's own employee annuity. The restored
amount must be recomputed if the spouse becomes entitled to a government pension,
social security benefit, or other social insurance. 3

These errors were caused by examiner oversight and the overpayments were not
detected by the RRB’s quality assurance reviews. 4 Projecting the improper payments
from these cases to the population could result in an estimated $1.8 million in improper
payments. See Appendices III and IV on pages 10 and 12 respectively for additional
details.


3
 20 Code of Federal Regulations (CFR) § 226.32(b).
4
 The agency’s quality assurance reviews consist of a statistical sample of initial awards; therefore, all errors may not
be detected.

                                                           4
Recommendations:

We recommend that the Office of Programs:

      1. take action to correct the spouse annuities for the error cases cited, and to
         establish overpayments and/or issue accruals when necessary; and

      2. provide additional training to claims examiners concerning spouse annuity
         adjustments.

Management’s Response

The Office of Programs agreed with Recommendation 1 and stated that they are in the
process of correcting the cases.

The Office of Programs agreed with Recommendation 2.


Improper Restored Amounts Paid

During our preliminary data analysis, we identified five error cases. These cases were
errors because the adjustment to the spouse annuity included a restored amount to
which the annuitant was not entitled. In each case, the annuitant did not meet the
criteria to be entitled to a restored amount. See Appendix II on page 8 for the
methodology related to the data analysis.

A restored amount is only payable if either the annuitant or their spouse has railroad
service prior to 1975. The restored amount is an increase to the Tier II component of a
spouse annuity that is equal to the amount the spouse's Tier I component was reduced
for the spouse's own employee annuity. 5

For the five error cases we identified, the RRB improperly included a restored amount in
the adjustment to the dual spouse annuity as if the annuitant or their spouse had service
prior to 1975. We found, however, that neither the annuitant nor their spouse had
railroad service prior to 1975. Therefore, the adjustments were not appropriate. The
errors were caused by dual spouse payment processes that were in place at the time
the annuities were initially awarded in 2009 and 2010. Although the agency had
identified some errors during its own quality assurance reviews and changed the
payment processes in 2011 to prevent these types of errors from happening in the
future, the five error cases that we identified were not detected by the agency’s quality
assurance reviews.

The total estimated overpayment for the five individuals is $172,927. The total financial
impact to the RRB over the expected lifetime of the annuitants if the identified
overpayments went undetected is approximately $866,000. See Appendix IV on
page 12 for the full explanation of the overpayment calculations.
5
    20 CFR § 226.32(b).

                                               5
Recommendation:

   3. We recommend that the Office of Programs take action to correct the amount of
      the spouse annuities for the five error cases cited, and to establish overpayments
      as appropriate.

Management’s Response

The Office of Programs agreed with Recommendation 3 and stated that they are in the
process of correcting the cases.

We make no further recommendations due to the changes that were implemented after
the errors occurred, but prior to this audit. In addition, we applied the data analysis to
the entire population and identified no more error cases of this type.




                                            6
                                                                        APPENDIX I

APPENDICES


                          GLOSSARY OF TERMS

Annuity                   Payment due an entitled individual for a calendar month.

Creditable Compensation   Any form of payment made to an individual for services
                          rendered as an employee for an employer, as defined in
                          the RRA, and various other payments, such as
                          separation and dismissal allowances.

Dual Entitlement          An individual is entitled to more than one railroad
                          retirement annuity. There are four types of dual railroad
                          retirement annuities:

                             1. An employee annuity and a spouse annuity;
                             2. An employee annuity and a survivor annuity;
                             3. A survivor annuity and a spouse annuity – only the
                                higher annuity is payable; and
                             4. A survivor annuity and a survivor annuity – only
                                the higher annuity is payable.

Employee                  An individual who is, or has been, in the service of a
                          railroad employer.

Restored Amount           An increase in a spouse’s Tier II benefit that is equal to
                          the amount that the spouse’s Tier I benefit was reduced
                          for the spouses own employee annuity.

Spouse                    The wife or husband of an annuitant who was married to
                          the annuitant for at least one year.

Tier I benefits           Benefits paid by the RRB that are calculated using social
                          security formulas based on earnings credited under
                          social security and railroad retirement.

Tier II benefits          Benefits paid by the RRB that are comparable to the
                          private pensions paid over and above social security
                          benefits in other industries.




                                       7
                                                                             APPENDIX II


            DATA ANALYSIS TESTING METHODOLOGY AND RESULTS

This appendix represents the methodology and results of our test to identify spouse
annuities that included a restored amount for which the annuitant was not entitled.

Test Objective and Scope

Our test objective was to identify spouse annuities that include a restored amount for
which the annuitant was not entitled. Our scope was limited to spouse annuities in
current pay status in the July 2013 MBF where the spouse was also receiving an
employee annuity.

Review Methodology

To identify potential erroneous restored amounts, we performed the following steps.

   •   Created a table of dual spouse annuitants from the July 2013 MBF.
   •   Created a table of dual spouse annuitants with Tier II adjustments.
   •   Created a table of individuals with service before 1975.
   •   Matched the table of dual spouse annuitants with Tier II adjustments to the table
       of individuals with service before 1975 to find spouse annuitants with Tier II
       adjustments where neither the spouse nor the employee had service before
       1975. This match produced a list of potential errors.
   •   Due to the limitations of the tables used, it was necessary to manually confirm
       that there was no service before 1975.
   •   For each of the confirmed cases, we reviewed the RRB’s Payment and Rate
       History database to determine if the dual adjustment represented a restored
       amount for which the individual was not entitled.
   •   For each case that had a restored amount for which the individual was not
       entitled, we estimated the overpayment through February 1, 2014.
   •   We then calculated the potential future savings to the RRB (based on the life
       expectancy of the annuitants) if they correct the identified errors. See
       Appendix IV on page 12 for the full explanation of the overpayment calculations.

Results of Review

The initial match identified 75 potential error cases. Our review of these 75 cases
identified 5 actual errors. The RRB improperly calculated the five annuities as if the
annuitant or their spouse had service prior to 1975.




                                            8
                                                                           APPENDIX II


Conclusion

Based on these results, we concluded that there were five spouse annuities that
included a restored amount for which the annuitant was not entitled. The total financial
impact to the RRB over the expected lifetime of the annuitants (if the identified
overpayments went undetected) is approximately $866,000.

See Table 2 in Appendix IV on page 12 for the estimation of the overpayments and
future savings.




                                            9
                                                                           APPENDIX III


            STATISTICAL SAMPLING METHODOLOGY AND RESULTS


This appendix represents the methodology and results of our statistical sampling test of
dual spouse annuity adjustments.

Sample Objective

Our sampling objective was to determine if the RRB had correctly calculated
adjustments for dual spouse annuities.

Scope

We selected the sample from the dual entitlement universe of 5,637 spouse records in
the July 2013 MBF. To obtain the dual entitlement universe, we extracted all spouse
records in current pay status where the spouse’s social security number matched the
claim number for an employee record in current pay status. We then removed five
cases from the universe that we identified as exception cases through the use of data
analysis. The difference resulted in a sample population of 5,632 spouse records with
dual entitlement.

Review Methodology

We used attribute estimation sampling and a sample size of 114.

Determination of Accuracy of Dual Spouse Annuity Adjustments

The required adjustment to the spouse annuity varies depending on certain criteria. We
developed spreadsheets for the following situations:

   1. If the spouse is divorced, the spouse’s Tier I annuity component is reduced by
      the spouse’s own employee total annuity rate (Tier I and Tier II). Divorced
      spouses are not entitled to Tier II.
   2. If there is no service prior to 1975 for either spouse or employee, the spouse's
      total annuity rate (Tier I and Tier II) is reduced by the spouse's own employee
      total annuity rate (Tier I and Tier II).
   3. If there is service prior to 1975, the spouse's Tier I is reduced by the spouse's
      own employee Tier I rate, and the Tier II is increased by a restored amount that
      is equal to the Tier I reduction. The restored amount needs to be recomputed if
      the spouse becomes entitled to a government pension, social security benefit, or
      other social insurance.




                                           10
                                                                           APPENDIX III


We used the applicable spreadsheet to recalculate the dual entitlement adjustment and
compared it to the agency’s record. This recalculation and comparison was done for
the most recent annuity calculation and for the annuity calculation when dual entitlement
began. For exception cases, we calculated additional annuity calculations to determine
the total overpayment or underpayment. We then determined the current average
monthly financial impact by adding the absolute values of the current monthly
overpayment or underpayment for each exception and dividing by the total number of
exceptions.

Results of Review

Our evaluation of the 114 randomly selected spouse records with dual entitlement
identified 3 incorrect payments. Based on the sample results, we estimate, with 90%
confidence, that at least 1% of the cases in the universe contain errors, which projects
to 56 error cases in the universe. We estimate a projected financial impact of
approximately $1.8 million due to examiner oversight. See Table 1 in Appendix IV on
page 12 for the estimated financial impact.

Audit Conclusion

Based on our evaluation, we concluded that the discovery of payment errors related to
dual entitlement adjustments warrants action to correct the three error cases identified
and additional training.




                                           11
                                                                                        APPENDIX IV


     ESTIMATED FINANCIAL IMPACT OF INACCURATE SPOUSE ANNUITY CASES
                       INVOLVING DUAL ENTITLEMENT

 The tables below show the estimated financial impact of the inaccurate adjustments to
 spouse annuities related to the spouse’s entitlement to their own employee annuity.
 The total estimated financial impact provided below assumes that the errors would not
 have been detected throughout the duration of the annuity.

 Table 1 shows the financial impact of projected errors based on our statistical sample.
 The population for our statistical sample was 5,632 cases. The sample results yielded a
 minimum error rate of 1%. When projected to the population, there would be at least 56
 error cases (1% x 5,632). We determined that the average monthly impact of the
 sample errors was $135. The life expectancy for spouses at age 66 is 19.9 years
 (238.8 months) per actuarial statistics. 6

 Table 1 – Projected Errors – Statistical Sample


  Average Monthly               Financial          Projected
 Financial Impact of          Impact Over         Number of              Financial Impact of
   Sample Errors               19.9 Years         Error Cases           Projected Error Cases
       $ 135                    $ 32,300               56                    $ 1,808,800

 Table 2 shows the financial impact of known errors discovered through data analysis.
 In each case, the spouse annuity included a restored amount even though the spouse
 annuitant did not meet the criteria to be entitled to a restored amount. The life
 expectancy is based on actuarial statistics using the age and sex of the annuitant.

 Table 2 – Known Errors – Data Analysis

                                                                     Estimated
             Current                                                Overpayment              Total
             Monthly              Life               Future           through              Financial
           Overpayment         Expectancy           Savings            2-1-14               Impact
Case 1          $ 775             16.5              $ 153,418           $ 44,035            $ 197,453
Case 2          $ 505             13.9              $ 84,284            $ 28,351            $ 112,635
Case 3          $ 494             16.9              $ 100,088           $ 20,455            $ 120,543
Case 4          $ 665             18.9              $ 150,806           $ 27,560            $ 178,366
Case 5          $ 942             18.1              $ 204,507           $ 52,526            $ 257,033
Total           $ 3,381                             $ 693,103          $ 172,927            $ 866,030

 We estimate the monetary impact to be approximately $2.7 million for the projected and
 known improper payments.

 6
  U.S. Railroad Retirement Board, Bureau of the Actuary, Actuarial Notes - Longevity of Railroad
 Retirement Beneficiaries, No. 1-12 (November 2012).

                                                   12
     APPENDIX V




13
     APPENDIX V




14
